ft

No. 21In The
SUPREME COURT OF THE UNITED STATES

In re Isoiah S. Harris Sr., Petitioner

PETITION FOR WRIT OF HABEAS CORPUS
PROOF OF SERVICE

Isaiah S. Harris Sr. #570016
Richland Correctional Institution
P.0 Box 8107
Mansfield, Ohio 44901
Pros se Litigant
Mr. Dave Yost
State Office Tower,
30 East Broad Street, 16th Floor
Columbus, Ohio 43215

IL

I, Isaiah S. Harris Sr., do swear or declare that on this date,
June 10, 2021, as required by Supreme Court Rule 29 the enclosed
Motion For Leave To Proceed In Forma Pauperis and Petition For
Writ of Habeas Corpus on each party to the above proceeding or
that party s counsel, and on every other person required to be
served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each
of them and with first- class postage prepaid, or by delivery to a
third- party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Mr. Dave Yost, State Office Tower, 30 East Broad Street, 16th floor,
Columbus, Ohio 43215

I declare under penalty of perjury that the forgoing is true
and correct pursuant to 28 U.S.C.S. §1746.
Executed on June |JJ 2021.

*».

Respectfully Submitted,
JLoizL X 7tfqsyutsXl
Isaiah S. Harris Sr. #570016
Richland Correctional Institutional
P.O. Box 8107
Mansfield, Ohio 44901
Pro Se Litigant

II

